HHS/OIG-Audit--"Implementation of Medicare's Postacute Care Transfer Policy at Blue Cross and Blue Shield of Georgia, (A-04-00-01210)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Implementation of Medicare's Postacute Care Transfer Policy at Blue Cross and Blue Shield of Georgia," (A-04-00-01210)
December 20, 2000
Complete
Text of Report is available in PDF format (1.44 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare's postacute care transfer policy provides for reduced inpatient payment rates when prospective payment system
(PPS) hospitals discharge beneficiaries in 10 specified diagnosis related groups (DRGs) to certain postacute care settings;
i.e., skilled nursing facilities, PPS-exempt hospitals or units, and home health agencies. This final report estimates,
based on a statistical sample, that Georgia hospitals were overpaid about $890,000 in Fiscal Year 1999 for claims involving
these 10 DRGs because the hospitals erroneously coded discharges as discharges to home rather than discharges to postacute
care settings. Among other things, we are recommending that the Health Care Financing Administration (HCFA) establish edits
in its common working file to compare beneficiary inpatient claims potentially subject to the postacute care transfer policy
with subsequent postacute claims. This will allow potentially erroneous claims to be reviewed and appropriate adjustments
to be made to the discharging hospital's inpatient claim. The HCFA officials concurred with our recommendations.